       e C L ' Sc,                                     NATIONAL SCIENCE FOUNDATION




  !@:
                                                        OFFICE OF INSPECTOR GENERAL
  z                                                       OFFICE OF INVESTIGATIONS
   4
      0
       &N   D A+O
                                                 CLOSEOUT MEMORANDUM

 Case Number: 1-06090030                                                                          Page 1 of 1
                                                                                                                I




            The Office of Inspector General received an allegation that a NSF contracting officer' said there
            would be "adverse consequences" if the complainant2, a non-selected bidder, protested NSF
            non-selection decision to the Government Accountability Office (GAO). Our investigation
            determined that, during a heated telephonic debrief, the contracting officer communicated such
            comments to the non-selected bidder in a manner that improperly linked future relations with
            NSF to the company's right to protest a contracting decision to the GAO.

            By the time of this investigation, the contracting officer had left his employment with NSF. In
            the course of our investigation we determined that a new Division ~ i r e c t o recently
                                                                                            r~       assumed
            control of the NSF office in question. When asked about the conduct at issue, the Division
            Director informed us that separate and apart from the matter under investigation, he had already
            initiated the development of a training program for his personnel.

          The Division Director was made aware of our conclusions in this matter and has incorporated
          this matter into his training plan to ensure all contracting officers understand and comply with
          FAR provisions, NSF policies, and his expectations as Division Director regarding maintaining
          an environment where small businesses and others can question or complain without fear of
          retaliation.

            In light of the above, no further investigative effort is necessary in this matter.

            Accordingly, this case is closed.




            a
NSF OIG Form 2 (1 1/02)
